TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                                    Inspections and Evaluations




                  Inspection of Taxpayer Assistance Centers
                 Finds Most Centers Generally Complied With
                 Established Procedures – Although Security
                     Measures Varied Among the Centers



                                      September 28, 2009

                             Reference Number: 2009-IE-R003




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 28, 2009


 MEMORANDUM FOR COMMISSIONER, INTERNAL REVENUE SERVICE


 FROM:                       R. David Holmgren
                             Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                    Final Report – Inspection of Taxpayer Assistance Centers Finds Most
                             Centers Generally Complied with Established Procedures –Although
                             Security Measures Varied Among the Centers (Inspection IE-09-004)

 This report presents the results of our inspection to determine whether Taxpayer Assistance
 Centers (TACs) have adequate physical security and provide professional and courteous service
 to taxpayers.

 Synopsis
 The Internal Revenue Service’s (IRS) Wage and Investment - Field Assistance Office staffs
 401 TACs in order to provide taxpayers face-to-face assistance. About 2,100 employees staff the
 TACs and work with taxpayers to resolve tax issues, answer tax law questions, make adjustments
 to tax accounts, accept completed tax returns and payments, establish payment agreement for
 qualified individuals who cannot pay in full, prepare basic individual income tax returns, and
 provide various tax forms and publications. In Fiscal Year 2008, TAC employees assisted
 approximately 6.9 million taxpayers.
 Our on-site inspections of 59 TACs revealed they generally complied with the policies
 prescribed by Field Assistance senior staff. The offices had the required signs listing the services
 offered, provided adequate space, and the required forms and publications. We noted the TACs
 were clean, well organized, and appeared to run efficiently during our visits.
 We found most TAC internal security procedures were effectively implemented. We found two
 managers who were not aware of the full passive security measures in their office. In these
 cases, the offices were equipped with closed circuit television systems but the managers did not
 know where the monitors for the cameras were located, if they were active, or if they were
                   Inspection of Taxpayer Assistance Centers Finds Most Centers
                     Generally Complied with Established Procedures – Although
                            Security Measures Varied Among the Centers


actively monitored. At both locations, the systems were not actively monitored but could
provide valuable information after an incident.
While on-site and in subsequent discussion with Field Assistance managers, we learned the level
of uniformed guard service provided varied from location to location. At the time of our
inspection, only 181 locations had some type of on-site uniformed guard service. This ranged
from perimeter security, which requires all visitors be screened upon entering the building, to
having a guard stationed in the actual TAC or in some cases both. Of the 401 TACs,
220 (55 percent) have no on-site guard service unlike the Social Security Administration which
has a policy of providing on-site guard service at its walk-in sites. Instead, the 220 TACs have a
duress alarm system monitored by local police or the Federal Protective Services. Responses to
an alarm within 15 minutes are deemed acceptable.

Wage and Investment and Physical Security and Emergency Preparedness executives
acknowledge the current model for determining which offices qualify for guard services is not
easily or consistently applied. Both groups of executive have been working on a task force to
determine how best to improve the security at the 220 unguarded TACs.

For Fiscal Year 2009, the IRS expects to spend approximately $6 million for guard service 1 at
TACs currently provided guard service. Physical Security and Emergency Preparedness staff
estimates it would cost $36.2 million to place one guard in each TAC for a full year2 and up to
$104.1 million to provide full screening at each location. 3 We recognize that on-site guard
service does not guarantee there will be no reportable incidents at the TACs; however, we
believe their presence may provide a significant deterrent effect and result in a reduction in the
number of incidents reported.

Recommendations
We recommend (1) the Director of Field Assistance reemphasize the need for each TAC
manager to fully understand the security measures in place in each office, and (2) the
Commissioner determine what security policy should be applied to the walk-in offices and
whether that should include a commitment to provide uniformed guard service at each walk-in
location either through general building security measures or placing a guard in the actual TAC
office.




1
  These are costs over and above those that are built into the rent costs paid by the IRS. The Physical Security and
   Emergency Preparedness staff is currently updating this figure to reflect actual costs verses projected costs.
2
  The estimated cost of one guard is $90,360 (401 guards x $90,360 = $36.2 million).
3
  See page 7 of the report.
                                                                                                                       2
                Inspection of Taxpayer Assistance Centers Finds Most Centers
                  Generally Complied with Established Procedures – Although
                         Security Measures Varied Among the Centers



Response
IRS management agreed with our recommendations, and has completed actions to address the
items identified during our inspection. The Director, Field Assistance issued a reminder to all
TAC managers to reemphasize existing security measures. Additionally, Field Assistance has
determined the security policy to be applied to all TACs. The security policy includes controlled
access, duress alarms, locks with key pads, and closed circuit television monitors. Field
Assistance plans to assess the feasibility of providing guard service at each TAC; however, they
acknowledge this solution could be cost prohibitive. We are concerned that as planned it will
take the IRS another year to make this assessment. Management’s complete response to the draft
report is included in Appendix VI.
If you have any questions related to this report, please contact me at (202) 927-7048 or
Kevin Riley, Director, Inspections and Evaluations, 972-308-1229.




                                                                                               3
                       Inspection of Taxpayer Assistance Centers Finds Most Centers
                         Generally Complied with Established Procedures – Although
                                Security Measures Varied Among the Centers




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Taxpayer Assistance Centers Generally Complied with Established
          Policies..........................................................................................................Page 2
          Security Measures Varied Among the Taxpayer Assistant Centers .............Page 3
                    Recommendations 1 and 2: ................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report .......................................Page 10
          Appendix III – Report Distribution List ......................................................Page 11
          Appendix IV – List of Taxpayer Assistance Centers Inspected ..................Page 12
          Appendix V – On-site Survey Form ..............................................………..Page 13
          Appendix VI – Management’s Response to Draft Report .............………..Page 17
       Inspection of Taxpayer Assistance Centers Finds Most Centers
         Generally Complied with Established Procedures – Although
                Security Measures Varied Among the Centers




                      Abbreviations

IRM             Internal Revenue Manual
IRS             Internal Revenue Service
PSEP            Physical Security and Emergency Preparedness
TAC             Taxpayer Assistance Center
                Inspection of Taxpayer Assistance Centers Finds Most Centers 

                  Generally Complied with Established Procedures – Although

                         Security Measures Varied Among the Centers 





                                      Background

The Internal Revenue Service’s (IRS) Wage and Investment - Field Assistance Office staffs
401 Taxpayer Assistance Centers (TACs) in order to provide taxpayers face-to-face assistance.
There are about 2,100 employees in the TACs who work with taxpayers to resolve tax issues,
answer tax law questions, make adjustments to tax accounts, accept completed tax returns and
payments, establish payment agreement for qualified individuals who cannot pay in full, prepare
basic individual income tax returns, and provide various tax forms and publications. In Fiscal
Year 2008, TAC employees assisted approximately 6.9 million taxpayers.
In some cases, taxpayers may have significant tax issues and the resulting stress associated with
the issue may cause the taxpayer to act in an inappropriate manner. Each year, taxpayers make
verbal threats or physically assault TAC employees; in some instances threaten to harm
themselves; enter a TAC with prohibited items; or engage in other disruptive behavior. The IRS
refers to these as incidents and according to records provided by Field Assistance, TAC
employees reported 122 incidents between October 2008 and May 2009. Additionally, IRS
officials have reported an increase in incidents with the current downturn in the economy.
Because of this close contact with taxpayers and the threat of violence, it is critical that TACs
have adequate security measures to protect employees, taxpayer information, equipment, and
taxpayers. The Physical Security and Emergency Preparedness (PSEP) staff, located within the
IRS’s Agency-Wide Shared Services, is responsible for developing security policies and
contracting for security services.
Our inspection was conducted to determine whether TACs provide professional and courteous
service to taxpayers and have adequate physical security. This inspection was performed from
February 2009 through July 2009 at the Field Assistance Office in the Wage and Investment
Division in Atlanta, Georgia, 59 TACs located in 17 states, and PSEP in the IRS National
Headquarters in Washington, D.C. This review was performed in accordance with the
President’s Council on Integrity and Efficiency Quality Standards for Inspections. Detailed
information on our inspection objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. TAC locations inspected are listed in
Appendix IV. The inspection checklist we developed based on the Internal Revenue
Manual (IRM) is in Appendix V.




                                                                                            Page 1
                     Inspection of Taxpayer Assistance Centers Finds Most Centers
                       Generally Complied with Established Procedures – Although
                              Security Measures Varied Among the Centers




                                        Results of Review

We determined that while the physical set up of the TACs varied from location to location, those
we visited generally complied with the policies prescribed in the IRM and guidance from Field
Assistance senior staff. The details of our inspection are described in the next section of this
report. During our on-site inspections, discussions with managers and Field Assistance staff
identified concerns with the level of security at each TAC. On-site security provided to the
TACs varies significantly among the sites. Some sites have guards stationed at public entrances
to the building, some have guards in the actual TAC space, some a combination of both, some
have guards in other offices in the building that are provided by another agency, and
220 (55 percent) TACs have no on-site guard service. Arrangements have been made to have
some type of police response to these sites if a duress alarm is activated. Help arriving within
15 minutes of the alarm is considered an appropriate response per the guidelines PSEP follows.
Providing physical security for TAC employees and taxpayer customers has been a concern to
the Field Assistance and the PSEP staff. While they have been studying how best to address this
concern, we believe the current economic downturn could cause some taxpayers seeking
assistance to feel more stress about their financial situation, which may in turn cause an increase
in the number of incidents at the TACs. Therefore, to the extent practical, the feasibility of
placing a uniformed guard at every TAC should be seriously considered.

Taxpayer Assistance Centers Generally Complied with Established
Policies
TACs are expected to be clean, uncluttered, and well organized to reduce congestion in the
TACs and to reduce wait time for taxpayers. If possible employees should place tax forms and
publications in a location to allow easy access and self-service for taxpayers. Employees should
also post signs that list the hours of operation, services provided and other information to help
manage the flow of taxpayers seeking assistance. Additionally, the TACs should be organized to
provide the taxpayers with the maximum privacy possible. Appendix V provides specific
requirements for each TAC.

We visited 59 TACs during the filing season, 1 and found that the TACs were clean and well
organized. Additionally, the TACs had signs posted to provide taxpayers with information
related to services provided and procedures to be followed in the TAC. Where the TACs had
adequate space, forms and publications needed by taxpayers were stored in a separate location


1
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                   Page 2
                Inspection of Taxpayer Assistance Centers Finds Most Centers
                  Generally Complied with Established Procedures – Although
                         Security Measures Varied Among the Centers



that taxpayers could access without causing congestion in the TAC. We did not observe any
long lines of taxpayers waiting to be served.

Although the TACs were organized to minimize wait times, one taxpayer with a cane
complained about being forced to wait outside until the TAC office opened. At another location,
customers for the Social Security Administration are allowed to enter the building at 8:15 a.m.,
whereas TAC customers are forced to wait until 8:30 a.m. to enter the building. The different
hours of operation caused some confusion and irritated some TAC customers.

Several TACs had self-service areas for tax forms and publications that were not fully stocked.
Particularly, we found that at least 7 percent of the bins for tax forms and publications were
empty at 19 of 59 TACs (approximately 32 percent of the TACs inspected). The percentage of
empty bins in 3 of the 19 TACs exceeded 20 percent. Overall, the TACs we inspected met the
standards defined by the Field Assistance senior management staff.

Security Measures Varied Among the Taxpayer Assistant Centers
Basic security measures were normally in place
The IRS has established basic security measures to protect IRS employees, computer equipment,
tax returns, records, monies, and property in its TACs. These basic security measures include
locked perimeter doors and intrusion detectors for first floor offices. Basic security measures
also include duress alarms in public contact areas, which are used by TAC employees to alert
local police and security guards of potentially dangerous situations. TAC managers are required
to periodically test duress alarms, and conduct quarterly and annual security reviews to ensure
minimum security standards are in place.
We reviewed the security measures at 59 TACs and found that all TACs did have basic security
measures in place. However, we noted a few cases where the benefits of the security measures
were diminished because employees did not use the security measures as intended. At one TAC,
we found an unlocked perimeter door which an unauthorized person could have used to gain
access to the restricted area in the TAC. The manager indicated the door did not automatically
lock when closed and an employee inadvertently failed to lock the door after entering.
At another TAC, we found that IRS employees failed to arm the security intrusion alarm system
during non-business hours for over 12 months. During that time period, intruders could have
gained access to the TAC without detection. The security system provides support to the TAC
and other IRS business units located in the same building. The control panel for the system was
located in an office separate from the TAC. TAC employees were not aware the security system
had not been armed in over 12 months because employees in another business unit were
responsible for arming and disarming the system. Those employees were relocated to another
building and the responsibility for the alarm system was not reassigned.

                                                                                          Page 3
                       Inspection of Taxpayer Assistance Centers Finds Most Centers
                         Generally Complied with Established Procedures – Although
                                Security Measures Varied Among the Centers



We also found that two managers were not aware of the full passive security measures in their
office. In these cases, the offices were equipped with closed circuit television systems. The
managers did not know where the monitors for the cameras were located, if they were active, and
if they were actively monitored. In both cases, the systems were not actively monitored but
could provide valuable information after an incident.

Most TACs do not have on-site guard service
TACs are classified as small (1-4 staff), medium (5-9 staff), large (10 – 19), or extra large (19 or
more staff). Staff size is just one of several components used to determine whether a site should
have on-site guard service. Of the 401 TACs in operation, only 181 had on-site guard service.
                              Figure 1: Location of Guard Service at TACs



                                                      Both




                                                                             Guard Inside the
                                                                                  TAC


                                    142              12         14
                               Guard at the
                             Building Entrance                                                    13

                                                               Guard Provided by Another Agency
                                                              But No Guard at Building Entrance or
                                                                        Inside the TAC
                                                                (Count does not include 57 TACs with guard service
                                                               inside the TAC and/or at the entrance of the building)




                 Source: Treasury Inspector General for Tax Administration analysis of records
                 provided by Field Assistance.

Security guards at different locations in the building where the TAC is located provided different
levels of protection. For example, security guards at the entrance of the building can prevent
individuals from entering the building with weapons and harmful materials and also restrict
access. 2 Security guards located inside the TAC may prevent incidents from occurring, may

2
    Costs for this type of security are usually built into the rent charges the IRS pays.
                                                                                                                        Page 4
                 Inspection of Taxpayer Assistance Centers Finds Most Centers
                   Generally Complied with Established Procedures – Although
                          Security Measures Varied Among the Centers



prevent verbal assaults from escalating to violence and they can immediately respond to irate
taxpayers. Security guards located in other parts of the building also provide protection;
however, in these cases they would most likely be responding to an incident after a duress alarm
has been activated.
PSEP senior staff informed us that determining which offices guards are assigned is not a simple
issue. The model used by the IRS to determine which locations should have on-site guard
service is based on the Department of Justice Vulnerability Assessment of Federal Facilities.
This tool takes into consider a number of criteria and is used to assign a Level designation to
each facility.
The figure below lists the security levels, the criteria for each security level, and whether guard
service is required.
    Figure 2: Requirement for Guard Service Based on Building Security Level
      Building                                                                       Requirement for
                                    Criteria for Security Level
   Security Level                                                                     Guard Service
   Level I             10 or fewer federal employees; 2,500 or fewer rentable       No
                       square footage; low public contact
   Level II            11-150 federal employees; 2,500-80,000 rentable              No
                       square footage; moderate public contact; routine
                       activities
   Level III           151-450 federal employees; 80,000-150,000 rentable           No
                       square footage; moderate to high public contact; law
                       enforcement or court/related activities, government
                       records and archives functions
   Level IV            More than 450 federal employees; more than 150,000           Yes
                       rentable square footage; high public contact; high-risk
                       law enforcement/intelligence agencies, courts, judicial
                       offices, and highly sensitive government records
   Level V             Reserved for and assigned to those facilities identified     Yes
                       and prioritized as national security critical
                       infrastructure. IRS buildings classified as Level V are
                       the computing centers located at Memphis, Tennessee;
                       Detroit, Michigan; and, Martinsburg, West Virginia.
  Source: Department of Justice Vulnerability Assessment Standards and IRS information.

One of the criteria in the model is the amount of public contact, and by their very nature, TACs
routinely have a high level. The other factors considered, like the number of employees, the


                                                                                                 Page 5
                   Inspection of Taxpayer Assistance Centers Finds Most Centers
                     Generally Complied with Established Procedures – Although
                            Security Measures Varied Among the Centers



square footage of the office, and the lack of court-related, law enforcement, or national security
data, make it very unlikely that TACs would receive guard service using this model.
Also, PSEP officials have acknowledged several TACs that currently have guard services should
not have them based on the established standards (about 80 percent would not qualify using the
model). It is particularly difficult, however, to take away such a service once employees and
taxpayers have become accustomed to it. The figure below lists the number of TACs with guard
service for each building security level designation.

                    Figure 3: TACs with Guard Service by Security Level
                                                           TAC with Guard           Percentage of TACs
       Security Level           Number of TACs
                                                              Service               with Guard Service
              I                         36                          5                     14 percent
              II                        235                        68                     29 percent
             III                        51                         33                     65 percent
             IV                         79                         75                     95 percent
            Total                       401                        181
  Source: Treasury Inspector General for Tax Administration analysis of records provided by Field Assistance.
While the likelihood of guard service increases with the security level of the building, a high
security level does not guarantee guard service. For example, 5 percent of TACs located in
buildings with security Level IV do not have guard service as required by the criteria listed in
Figure 2.
As of our inspection, 220 TACs had no guard service and Field Assistance and PSEP staffs were
proactively addressing this issue. In September 2008, a task force was formed to develop a
consistent methodology to determine the need for guard service. Included in the criteria are the
volume of public access to the building, the use of other security measures (such as, closed
circuit television monitors and magnetometers), and the presence of guard service provided by
the building or other agency collocated within the building. The task force also documented a
standardized process to be used to request guard services and determined which of the 220 TACs
without guard service should receive guard service first by producing a prioritized list of all
220 TACs.

We recognize that on-site guard service does not guarantee there will be no reportable incidents
at the TACs; however, we believe their presence may provide a significant deterrent effect and
result in a reduction in the number of incidents reported. Having some form of guard service


                                                                                                        Page 6
                   Inspection of Taxpayer Assistance Centers Finds Most Centers
                     Generally Complied with Established Procedures – Although
                            Security Measures Varied Among the Centers



screening individuals as they enter the building housing the TAC is also a good measure
assuming the guards are able to respond to any incidents in the TAC.

Ideally, senior officials in the Wage and Investment Division and PSEP would prefer to have
guard service in all TACs. They cite the Social Security Administration as a Federal agency
with a security model that largely requires on-site uniformed guard service at the majority of its
offices that provide walk-in face-to-face services. However, they believe current funding
limitations make this option unfeasible.

For Fiscal Year 2009, the IRS expects to spend approximately $6 million for guard service at
TAC sites already provided on-site guard service. 3 PSEP estimates it would cost $36.2 million 4
to place one guard in each TAC for a full year. To physically screen persons entering each TAC,
each site would need two guards and related screening equipment. The estimated cost for the
guards is $72.4 million (802 guards @ $90,360) and $31.7 million ($79,100 x 401) 5 for the
equipment. Therefore the cost to the IRS is estimated to range from $36.2 million for a guard in
each site up to $104.1 million to staff and equip each TAC to fully screen its customers (the first
year) and then would drop to $72.4 million over the next 4 years.

PSEP officials noted other IRS business units would have to share the additional cost in cases
where other IRS business units occupy the same facilities as the TACs. In cases where the TACs
share facilities with other agencies, such as the Social Security Administration, the IRS will need
to have agreements to share the cost of added guard service. Because the funding issue for
additional guard service includes other IRS business units and could involve other agencies, the
Field Assistance and PSEP staffs are not authorized to make this decision at their level.

Recommendations
Recommendation 1: The Director of Field Assistance should reemphasize the requirement
that each manager fully understand the security measures in place in each office he or she is
responsible for.

        Management’s Response: IRS management agreed with the recommendation and
        the Director, Field Assistance issued a reminder to all TAC managers to reemphasize
        existing security measures and revised its policy for reporting incidents.



3
  These are costs over and above those that are built into the rent costs paid by the IRS. PSEP staff is currently
   updating this figure to reflect actual costs verses projected costs.
4
  The estimated cost for one guard is $90,360 (401 guards x $90,360 = $36.2 million).
5
  The estimated cost of a magnetometer ($73,000), x-ray machine ($5,600) and hand-held wand ($500) for each site
   and on average each will need to be replaced every 5 years.
                                                                                                           Page 7
                Inspection of Taxpayer Assistance Centers Finds Most Centers 

                  Generally Complied with Established Procedures – Although

                         Security Measures Varied Among the Centers 




Recommendation 2: The IRS Commissioner should determine what security policy should
be applied to the walk-in offices and whether that should include a commitment to provide
uniformed guard service at each TAC.

       Management’s Response: IRS management agreed with the recommendation and
       the Director, Field Assistance:

       a)	 Has determined the security policy to be applied to all TACs. The security policy
           includes controlled access, duress alarms, locks with key pads, and closed circuit
           television monitors; and,

       b)	 Plans to assess the feasibility of providing guard service at each TAC; however,
           management acknowledges this solution could be cost prohibitive and this corrective
           action is not expected to be completed until September 15, 2010.
       Office of Inspections and Evaluations Comment: We recognize implementing
       the suggested corrective action is not a very simple process, but are concerned that if not
       implemented by January 2010, the IRS will enter a new filing season with largely the
       same conditions and risks as we observed last year. Additionally, as the Field Assistance
       and PSEP task force to study security issues was formed in September 2008, it will take
       the IRS 2 years to upgrade security at its TAC locations and a full year to implement this
       agreed to corrective action.




                                                                                           Page 8
                Inspection of Taxpayer Assistance Centers Finds Most Centers
                  Generally Complied with Established Procedures – Although
                         Security Measures Varied Among the Centers



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of the inspection was to determine whether selected components of the
Field Assistance mission and goals are being met. To accomplish this objective we:
  I. Determined whether TACs had adequate physical security and taxpayer privacy.
 II. Determined whether TACs provide professional and courteous service to taxpayers while
     minimizing wait time.




                                                                                         Page 9
                Inspection of Taxpayer Assistance Centers Finds Most Centers
                  Generally Complied with Established Procedures – Although
                         Security Measures Varied Among the Centers



                                                                     Appendix II

                  Major Contributors to This Report
Philip Shropshire, Director, Office of Inspections and Evaluations
Kevin P. Riley, Director, Office of Inspections and Evaluations
Earl C. Burney, Senior Auditor
Dolores M. Castro, Senior Auditor
James A. Douglas, Senior Auditor
Linda P. Lee, Senior Analyst
Jacqueline D. Nguyen, Senior Auditor




                                                                          Page 10
               Inspection of Taxpayer Assistance Centers Finds Most Centers
                 Generally Complied with Established Procedures – Although
                        Security Measures Varied Among the Centers



                                                                      Appendix III

                        Report Distribution List

Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Commissioner, Wage and Investment Division SE:W
Chief, Agency-Wide Shared Services OS:A
Director, Customer Assistance, Relationships and Education SE:W:CAR
Director, Field Assistance SE:W:CAR:FA
Director, Physical Security and Emergency Preparedness OS:A:PSEP
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC




                                                                            Page 11
                Inspection of Taxpayer Assistance Centers Finds Most Centers
                  Generally Complied with Established Procedures – Although
                         Security Measures Varied Among the Centers



                                                                  Appendix IV

     List of Taxpayer Assistance Centers Inspected

     State                 City                State               City
California        Los Angeles            Minnesota         St. Cloud
California        Oakland                Minnesota         St. Paul
California        San Diego              Missouri          Independence
California        San Francisco          Missouri          Kansas City
California        San Jose               Missouri          St. Joseph
California        San Marcos             New Hampshire     Portsmouth
California        Santa Barbara          New York          Garden City
California        Santa Maria            New York          Hauppauge
California        Walnut Creek           New York          New York
Florida           Maitland               New York          New York
Florida           Sarasota               Oregon            Eugene
Florida           St. Petersburg         Oregon            Medford
Florida           Tampa                  Oregon            Portland
Georgia           Athens                 Oregon            Salem
Georgia           Atlanta 1              Rhode Island      Providence
Georgia           Atlanta 2              Texas             Dallas
Georgia           Gainesville            Texas             Dallas
Georgia           Macon                  Texas             DeSoto
Idaho             Boise                  Texas             Ft. Worth
Idaho             Idaho Falls            Texas             Houston 1
Idaho             Pocatello              Texas             Houston 2
Kansas            Mission                Texas             Houston 3
Louisiana         Baton Rouge            Texas             Houston 4
Louisiana         Lafayette              Utah              Ogden
Louisiana         New Orleans            Utah              Provo
Massachusetts     Boston                 Utah              Salt Lake City 1
Maryland          Baltimore              Utah              Salt Lake City 2
Maryland          Wheaton                Virginia          Fredericksburg
Minnesota         Bloomington            Virginia          Richmond
Minnesota         Minneapolis




                                                                          Page 12
                 Inspection of Taxpayer Assistance Centers Finds Most Centers
                   Generally Complied with Established Procedures – Although
                          Security Measures Varied Among the Centers



                                                                                    Appendix V
                               On-site Survey Form

                   Taxpayer Assistance Centers Onsite Inspection Checklist
TAC Number (ODN)                                               Date of Inspection
TAC Size Designation                                                      Time in
TAC Full Time or PT                                                     Time out
TAC Street Address                                                   Reviewer 1
TAC City, State Address                                              Reviewer 2
TAC Manager First and Last Name                              TAC Manager Phone

Number of Clients present in the TAC: Number of TAC staff present:      Number of workstations:



Number              Inspection Item                 Reference        Yes    No        Comment
           Customer Service - Is the TAC        Internal Revenue
           professional, well organized, and    Manual (IRM)
                                                21.3.4.3
           clean?

   1a      Are forms in a separate location     IRM 1.4.11.4 (2)
           from the TAC?
   1b      If 1a is “No” - are self-service     IRM 1.4.11.4 (3)
           forms racks in the outer lobby or
           as near to the TAC entrance as
           possible?
   1c      If TAC is not on 1st floor, are      IRM 1.4.11.4 (2)
           forms located on 1st floor?
   2a      Was there an Initial Assistance      IRM 21.3.4.3.2(3)a
           Representative/Individual Tax
           Advisory Specialist to direct
           taxpayers to the appropriate area?
   2b      If “No” to 2a – Did an IRS           IRM 21.3.4.3.2(3)b
           employee make periodic
           announcements regarding self-
           service?



                                                                                         Page 13
               Inspection of Taxpayer Assistance Centers Finds Most Centers
                 Generally Complied with Established Procedures – Although
                        Security Measures Varied Among the Centers



Number             Inspection Item                  Reference        Yes   No      Comment
  3a     Are racks for forms neatly stacked     IRM 21.3.4.3.2(2)b
         and labeled?
         #Bins                    #Empty
  3b     Are self-service forms racks easily    IRM 1.4.11.4
         accessible to reduce congestion in
         and around the TAC?
  4      Do employees show respect and          IRM 21.3.4.3.3.2.6
         sensitivity to disabled people?
  5a     Are Survey Cards available?            IRM
                                                21.3.4.3.5.2
  5b     Is a Survey Card Drop Box readily
         identifiable and accessible?
  5c     Does the center have a computer
         self-help area?
  5d     If “Yes”, # self-help computers:
         # in use:
  5e     Determine the total number of
         customer assistance stations or
         cubicles.
         Are the following signs posted:        IRM 21.3.4.3.12
  6a                        Hours of Service
                   Doc #10160 Cat # 25223R
  6b                    Making a Payment?
                  Doc # 10161 Cat # 25224C
  6c                 In This Office, We Can
                  Doc # 10169 Cat # 26868U
  6d               En Esta Oficina Podemos
                Doc # 10169SP Cat # 33307U
  6e             Employees in this Taxpayer                                     This sign is
                       Assistance Center will                                   obsolete and
                  Doc # 12126 Cat # 37389Y                                      should not be
                                                                                displayed
  6f            Emplendos en este Centro de                                     This sign is
                 Asistencia al Contribuyente                                    obsolete and
                 Doc # 12126SP Cat # 37579E                                     should not be
                                                                                displayed
  6g                No Cameras (ENG/SP) IRM 1.4.11.4.1.4 and
                   Doc # 12363 Cat# 48408A 21.3.4.3.12
  6h     At full-time and part-time offices,    IRM 21.3.4.2
         are the posted hours shown as
         8:30-4:30 on scheduled days?


                                                                                       Page 14
               Inspection of Taxpayer Assistance Centers Finds Most Centers
                 Generally Complied with Established Procedures – Although
                        Security Measures Varied Among the Centers



Number             Inspection Item                   Reference        Yes   No   Comment
  6i     Are all signs displayed where they      IRM 21.3.4.3.12
         can be easily seen?
  6j     Are any of the signs handwritten?
         Are facilities adequately
         protected
  7a     Do all perimeter doors and              IRM 1.4.11.4.1
         windows have locks?
  7b     Are all perimeter doors (excluding
         the main entrance) and windows
         locked?
  7c     Do IRS employees wear visible           IRM 1.4.11.4.1
         credentials?
  7d     Do visitors wear visible visitor’s      IRM 1.4.11.4.1
         badges?
  7e     Are duress alarms in public             1.4.11.4.1
         contact areas? (Ask Manager.)
  7f     Are duress alarms tested quarterly      1.4.11.4.2 (4)
         as required and recorded on             Exhibit 1.4.11-11
         F12149 Functional Security
         Reviews for Managers?
  7g     Are intrusion detection devices in      1.4.11.4.1
         place and operational for first floor
         offices?
  7h     Do IRS employees who provide            IRM
         face-to-face assistance to              1.4.11.4.1.2.1
         taxpayers wear name tags?
  7i     Do employee name tags include           IRM 1.4.11.4.1.2.1
         the entire first name, last name,
         and employee identification
         number?
  7j     Were physical and fiscal reviews        IRM
         conducted on a quarterly basis?         1.4.11.4.1.3 (1) c
  7k     Were any non-IRS individuals            IRM 10.2.13.2 (3)
         observed in IRS only space?
  7l     Are work areas divided with             IRM 21.3.4.5.4
         screens to provide some privacy
         and limit disclosure?




                                                                                   Page 15
                Inspection of Taxpayer Assistance Centers Finds Most Centers
                  Generally Complied with Established Procedures – Although
                         Security Measures Varied Among the Centers



Number             Inspection Item                  Reference      Yes   No      Comment
  7m     Do employees have a space to           March 2006 Power
         store their personal items to ensure   Point
         they don’t co-mingle their items
         with taxpayers’ items? (Observe
         and ask Manager.)
  7n     Does the manager have a copy of        IRM 1.16.6                    Note the date of the
         the current Occupant Emergency                                       plan.
         Plan/Guide
  7o     Are visitors screened through a
         magnetometer? (If magnetometer
         not present mark comment box
         “N/A”)
  7p     Are visitor’s personal items X-
         rayed? (If X-ray device not present
         mark comment box “N/A”)
  7q     If “No” to 7p, are personal items
         physically searched?
         Cash/Sensitive Items
  8      Are there any payment drop             IRM 21.3.4.3.1
         boxes at the site? (Payment drop
         boxes are not authorized in TACs.)
  8a     Determine if a cash box is kept at     IRM 21.3.4.7 (8)              A cash box used to
         the site:                                                            store checks,
                                                                              receipt books, and
                                                                              cash.
  8b     Is it a metal container with riveted   IRM 21.3.4.7 (8)
         or welded seams?
  8c     Does it have either a key or           IRM 21.3.4.7 (8)
         combination lock?
  8d     Are the keys or combination            IRM 21.3.4.7 (8)
         controlled?




                                                                                     Page 16
    Inspection of Taxpayer Assistance Centers Finds Most Centers
      Generally Complied with Established Procedures – Although
             Security Measures Varied Among the Centers



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 17
Inspection of Taxpayer Assistance Centers Finds Most Centers
  Generally Complied with Established Procedures – Although
         Security Measures Varied Among the Centers




                                                       Page 18
Inspection of Taxpayer Assistance Centers Finds Most Centers
  Generally Complied with Established Procedures – Although
         Security Measures Varied Among the Centers




                                                       Page 19
Inspection of Taxpayer Assistance Centers Finds Most Centers
  Generally Complied with Established Procedures – Although
         Security Measures Varied Among the Centers




                                                       Page 20
